                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                                     Inspection of
                                                  the U.S. Mission to
                                             the Organization for Security
                                              and Cooperation in Europe

                                            Report Number ISP-I-12-18A, March 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




                               Table of Contents

Key Judgments                                            1
Context                                                  2
Executive Direction                                      3
Policy and Program Implementation                        7
  Reporting, Analysis, and Advocacy                      9
  Political Section                                     11
  Arms Control Section                                  11
  Office of Resource Management                         12
  Public Affairs                                        13
Resource Management                                     15
  Financial and Human Resources                         15
  Management Controls                                   15
List of Recommendations                                 17
List of Informal Recommendations                        18
Principal Officials                                     19
Abbreviations                                           20




                                       iii
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED




Key Judgments
•   The U.S. Mission to the Organization for Security and Cooperation in Europe (USOSCE)
    has operated for decades in an (b) (5)            facility that impedes efficient
    operations. The Department should complete negotiations as soon as possible with an
    identified commercial developer so the mission can relocate at the earliest possible date.

•   An experienced Ambassador and a new deputy chief of mission (DCM) are strong leaders
    who provide a clear, common vision and the strategic guidance to enable their capable team
    to achieve agreed-upon goals.

•   Advancing U.S. objectives in a climate where there is a growing divergence between
    Europe and Eurasia’s democratic West and increasingly authoritarian East is challenging
    for both the United States and the Organization for Security and Cooperation in Europe
    (OSCE).

•   The mission led the OSCE’s efforts to maximize the participation of civil society and
    nongovernmental organizations (NGO) in meetings and conferences. Including these
    organizations in meetings and conferences advances U.S. interests in holding participating
    states accountable for their actions, reflects modern international realities, and enhances the
    relevance of the OSCE.

•   The mission excels in its planning and tactics to promote U.S. interests in and facilitate the
    work of the OSCE. Staff manages highly technical issues and provides high-quality
    analysis to Washington consumers, but the mission could expand its reporting via formal
    channels.

•   The public affairs section performs well in conducting outreach throughout Europe and
    Eurasia, often using the Ambassador as a public speaker. The section needs to focus its
    social media efforts on developing larger target audiences.


       Management services are evaluated in the OIG report, Inspection of Tri-Mission Vienna
Joint Management Office (March 2012).

        All findings and recommendations in this report are based on conditions observed
during the on-site review and the standards and policies then in effect. The report does not
comment at length on areas where OIG did not identify problems that need to be corrected.

        The inspection took place in Washington, DC, between September 12 and 29, 2011,
and in Vienna, Austria, between October 3 and November 17, 2011.The members of the team
were (b) (6)



                                          1
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Context
        Founded in 1975 to foster cooperation and break down dividing lines between Europe’s
East and West, the OSCE is the world’s largest regional security organization. Its 56
participating states and 12 partner countries include countries as diverse as North Atlantic Treaty
Organization (NATO) allies, the Central Asian republics, and Russia. In the 1990s, the OSCE
gained a mandate to help new states in Eastern Europe and Eurasia manage the transition to
democratic governance and resolve their frozen conflicts. Today, lingering tensions and
increasingly authoritarian governance in parts of its region give the OSCE reason to keep
focusing on these areas. Achieving consensus has been challenging in recent years, however, as
Russia and certain Eurasian countries have begun to question OSCE’s authority and activities.

        The mandate of USOSCE aligns with key U.S. foreign policy objectives: advancing
human rights and democratic values, helping to prevent conflicts, countering transnational
threats, promoting regional stability and arms control, and engaging with Russia. OSCE
provides the United States with opportunities to gain region-wide support for these policies that
would be difficult to achieve through NATO coordination, U.S.-European Union cooperation,
or bilateral relations alone. The U.S. engagement with the OSCE also signals sustained U.S.
commitment to the security of Europe and Eurasia.

       U.S. interests in the OSCE center on the Helsinki commitments that each member
undertakes with regard to democratic freedoms and security, as well as the tradition of dialogue
between civil society and governments. The uprisings and upheaval in 2011 across North
Africa and the Middle East provide the OSCE with an opportunity to model ways of supporting
human rights and fundamental freedoms in new arenas. In addition, the OSCE in recent years
has helped Central Asian states address threats emanating from Afghanistan. The OSCE
maintains field missions and training academies across Central Asia and is devoting increasing
resources to the issue of border management.

         U.S. support to the OSCE relies on two different appropriations. One appropriation,
drawing on the Bureau of European and Eurasian Affairs (EUR) program funds, contributes to
the OSCE Secretariat and OSCE institutions. The other appropriation, drawing on foreign
assistance funding, helps support OSCE field missions and the assignment of U.S. personnel to
those missions. After years of decline, U.S. funding has returned to previous levels and now
constitutes approximately 11.5 percent of the OSCE’s unified budget and 14 percent of the cost
of its field missions. Department budget constraints will require EUR and USOSCE to consult
closely with OSCE and member states on ways to rebalance OSCE budgets.

        USOSCE staffing consists of 22 Department U.S. direct-hire and 15 locally employed
staff members. The Department of Defense (DOD) is considering the withdrawal of five Joint
Staff and Defense Threat Reduction Agency positions, reportedly due to its own budget cuts
and the $1.3 million charge for its share of fit-out costs for the planned, new USOSCE space.
       (b) (5)




                                          2
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Executive Direction
        An experienced Ambassador, new DCM, and capable staff overcome a plethora of
obstacles to advance U.S. objectives in the increasingly challenging OSCE environment. The
Ambassador perceives with concern the growing divergence between Eurasia’s democratic
West and the increasingly authoritarian East. He is active in urging decisionmakers in
Washington to attend to this trend and to rely on the OSCE as the key forum in which to do so,
even while U.S. priorities and global power and attention continue to shift to Asia. Several
bureaus in the Department have equities in USOSCE, which complicates communications on
these issues. The Ambassador’s long experience with Russia, coupled with his work on
advancing the Department’s “reset” policy on relations with Russia, enable him to play a
valuable role in the ongoing policy debate and in his dialogue with Russian officials.

        The Ambassador leads the USOSCE team in analyzing and strategizing about how best to
advocate U.S. positions regarding OSCE’s civil society responsibilities. Russia and many of the
states of the former Soviet Union have sought to limit the activities of OSCE institutions, such as
the Office of Democratic Institutions and Human Rights (ODIHR), the High Commission for
National Minorities, and others. This has been especially the case with regard to election
observer missions and the participation of NGOs in OSCE summits, ministerial meetings,
conferences, and implementation meetings (namely, the annual human dimension
implementation meeting and the environment and economic dimension meeting). Nonetheless,
USOSCE has succeeded in ensuring that the OSCE continues to deploy election observation
missions, although these missions increasingly face restrictions from some host governments.

        The Ambassador also has been instrumental in maximizing outreach to NGOs on the
margins of the main, annual OSCE meetings. At the Astana OSCE summit meeting of 2010,
for example, he conceived and fostered a parallel NGO summit featuring an important speech
by the Secretary of State. This paradigm will be repeated at the 2011 OSCE Ministerial
Council in Vilnius and may become a permanent feature of these annual gatherings,
representing an important legacy of the Ambassador’s tenure. The presence of hundreds of
NGOs guarantees that the OSCE takes civil society views into account, however
uncomfortable that may be for some participating states.

        The mission has cultivated an impressive array of contacts among the OSCE’s 56
participating state representatives, as well as observer delegations and hundreds of international
staff members. The Ambassador knows all the key representatives, often on a first-name basis,
thanks to his ability to use fluent Russian as needed. (b) (5)
                                                                      Similarly, the USOSCE staff
has excellent contacts at the appropriate levels, a situation the Ambassador strongly encourages.
He also includes staff in outside meetings, calls on them to present their expert opinions, and
takes along junior and other colleagues on his trips in the OSCE region. Mission officers use
representation funds well to deepen these important relationships. The Ambassador, whose
background includes extensive public diplomacy experience, is active with the press and is an
outstanding, extemporaneous public speaker. His numerous interviews and speeches constitute a
valuable element in the United States’ advocacy efforts.


                                          3
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

       The administration’s interest in using the OSCE to lend support to new democracies in
North Africa elicited a number of quick, pertinent responses from USOSCE leadership. The
Ambassador used a series of public statements and interviews, worked his diplomatic contacts,
and increased the mission’s reporting to support this initiative.

        Overall, the difficulty of achieving consensus in such a large organization and the
resistance of some participating states to fundamental OSCE principles serve to limit senior-
level U.S. engagement in the OSCE. Funding so far has remained healthy, however, especially
for extra-budgetary projects that do not require consensus. Nonetheless, lowered Washington
expectations of the OSCE in recent years compel the USOSCE mission to demonstrate that the
OSCE is more than a forum for exchanging views. Some in Washington agencies and bureaus
view that the staffing in the OSCE’s field missions in third countries should be rebalanced.
Budgetary pressures from participating states also are increasing scrutiny of the OSCE’s field
missions, which many consider the organization’s “crown jewels.” USOSCE faces a related
challenge: keeping the OSCE focused on its core mandate of conflict prevention and human
rights, while avoiding duplication of work already being done by other international or regional
organizations, such as in the Arctic or with regard to export controls.

        In this context, USOSCE has done a good job husbanding its resources and planning for
the likely, future decline in U.S. funding. Although funding comes to USOSCE and to the
OSCE itself from several sources, EUR has committed to continuing the existing funding
streams. After extended consideration, the bureau believes this mechanism is a more reliable
way to sustain contributions and support than to try to consolidate them or shift them to
another bureau; the OIG team concurs with this assessment.

        The mission excels in planning and tactics, particularly with regard to the OSCE’s two
major, annual meetings, the December Ministerial Council and the October human dimension
implementation meeting. The leadership of USOSCE lays out all the meetings’ potential
problems and opportunities, defines the issues, and acts as the U.S. Government’s policy and
logistics secretariat. The OIG concurs with the widespread sentiment among mission officers,
that the USOSCE leadership provides a clear, common vision and the strategic guidance to
achieve agreed-upon goals. USOSCE’s Mission and Strategic Resource Plan adequately
describes its activities and objectives.

        The mission confronts an interagency dilemma regarding the future of a U.S. military
presence in USOSCE. For many years, military advisors have been on permanent assignment
at USOSCE and have contributed valuable perspectives on such key OSCE activities as arms
control, munitions destruction, and the military aspects of conflict resolution, while also
making important contacts among the military advisors that most other OSCE participating
states count in their delegations. The continuation of a permanent DOD presence will affect the
mission’s ability to represent U.S. defense interests in OSCE fora. At present, however, DOD
is considering withdrawing the five-person military staff assigned to USOSCE, largely because
of the increased startup and ongoing costs of moving into a new building. The Ambassador and
a team of Embassy Vienna and Washington officials worked hard to secure leased space in a
new building, but the security customization expense and prospective recurring lease costs
have proved to be higher than DOD expected. EUR has raised the issue with the Joint Chiefs of

                                         4
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Staff, and it remains under consideration. The OIG team believes that the Department has
handled this issue in the appropriate manner.

         The leadership of USOSCE works effectively with mission staff members, who rate both
the Ambassador and the new DCM highly for their substantive expertise and attention to staff
concerns. A good balance of duties and expertise characterizes the Ambassador-DCM
partnership. They complement each other well, fostering a productive, efficient work
environment. The DCM is restoring clear, standardized procedures for the flow of decisions and
documents in and out of the front office. At the same time, the front office has sought an uptick
in the amount of formal paperwork, especially briefing materials from the political section. Some
of the requested information could be provided more efficiently through informal
communications, such as email. This situation will evolve satisfactorily as the new DCM settles
in, but it will require monitoring by both the front office and the political section head.

        High morale prevails at USOSCE, thanks to concerted efforts by the Ambassador and
particularly the new DCM, who has already made enormous strides in bolstering a sense of
team cohesion. During in-house USOSCE meetings, the atmosphere is open, substantive, good
humored, pragmatic, and conducive to valuable brainstorming. The Ambassador’s interest in
the officers’ work and his trust in their capabilities have a motivating influence on their
performance. USOSCE staff work long hours, often on holidays, and they frequently travel to
meetings that intensify their workload, so appreciation from the front office makes a positive
difference. Although the Ambassador and DCM frequently praise employees in meetings,
some indicated to the inspectors that they also would appreciate more personal feedback about
their work.

        The Ambassador and DCM fully support Equal Employment Opportunity principles
and uphold ethical standards. They also demonstrate careful attention to security and safety –(b
(b) (5)                                                                                       )
                                                     – and they are responsible stewards of (5
resources.                                                                                    )

       The Ambassador and DCM at times have meetings without an embassy note taker and
have not consistently shared with the political section the information that was picked up or
exchanged during meetings. As a result, officers sometimes were not informed on recent
developments in their portfolios. The DCM and Ambassador acknowledged the need to
improve the downward flow of key information and have begun to use frequent informal and
formal meetings to do this.

        Office management specialists at USOSCE have been filling in for each other during
temporary vacancies, a sharing of workload that is evolving well since the arrival of the new
DCM. Continuing attention to judicious allocation of this limited personnel resource will
ensure that no section of USOSCE finds its work disrupted unnecessarily.

Development of Entry-Level Officers

       The career development program for first- and second-tour officers and specialists
needs attention. It is centered at Embassy Vienna, and does not provide the full range of

                                          5
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

opportunities that would constitute a comprehensive career development matrix. The
Ambassador and DCM acknowledge these shortcomings.

        First- and second-tour personnel at USOSCE are active in an informal association that
includes their counterparts at Embassy Vienna and the U.S. Mission to International
Organizations in Vienna (UNVIE). Some employees in this larger group feel confined to the
duties of their sections and do not experience the full scope of Foreign Service activities. Only
rarely are opportunities available to participate in the wider work of each mission or the other
missions in Vienna. While first- and second-tour officers and specialists from some missions
receive mentoring and guidance on a day-to-day basis from their direct supervisors, others do
not. All report that their careers would benefit from wider access to senior officers to build
expertise in diplomatic skills.

        The Ambassador and DCM welcomed the OIG team’s suggestions for fashioning an
entry-level development program at USOSCE that fulfills the Foreign Service Director
General’s direction, transmitted worldwide on November 22, 2010, as State 120467, to conduct
robust mentoring and professional development of entry-level Foreign Service employees.
They pledged to collaborate with the other missions to seek short-term opportunities for first-
and second-tour personnel to work in the sister missions.

Recommendation 1: The U.S. Mission to the Organization for Security and Cooperation in
Europe should develop and implement a plan to provide first- and second-tour officers and
specialists with regular mentoring sessions and well defined opportunities to gain experience
with multilateral relations, support official visits, speak in public fora, produce written reports,
and participate in representational events. (Action: USOSCE)




                                           6
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
         The mission’s arms control and political section heads report to the Ambassador
through the DCM, and they work with different OSCE fora. According to 1 FAM 442.4, the
head of the arms control section is the chief U.S. arms control delegate to the OSCE and
represents the United States in the multilateral OSCE Forum for Security Cooperation, the
Joint Consultative Group, and the Open Skies Consultative Commission. In the capacity of
chief U.S. arms control delegate, the counselor reports to the Assistant Secretary for Arms
Control, Verification, and Compliance, as well as the Ambassador. The OSCE’s “human
dimension,” which encompasses human rights, civil society, the rule of law, and democratic
institutions, has increasingly become the mission’s main focus, for which the political section
has responsibility.

       The United States provides funding to the OSCE through a variety of programs. U.S.
contributions to the OSCE unified budget in FY 2011 amounted to $30 million, of which
$20 million was funding from the Assistance for Eastern Europe, Eurasia, and Central Asia
appropriation (AEECA) for OSCE field missions, and $10 million from Diplomatic and
Consular Program funding for OSCE Secretariat operations.

        In addition, in FY 2011 the United States provided $2 million in AEECA funds as
extra-budgetary contributions to the OSCE, and another $8 million in Assistance for Eastern
Europe and Central Asia funds to cover the costs of seconding U.S. personnel to the OSCE.
Separately, several Department bureaus provide Nonproliferation, Antiterrorism, Demining,
and Related Programs funding to the OSCE. The program funding includes a grant from the
Bureau of International Narcotics and Law Enforcement Affairs for $500,000 to combat drug
trafficking and strengthen border controls, a grant from the Bureau of International Security
and Nonproliferation of $500,000 to stem trafficking in small arms and light weapons, and a
grant from the Office of the Coordinator for Counterterrorism of $300,000 to combat
extremism and terrorism. USOSCE monitors and reports on the use of these funds, with the
exception of the Nonproliferation, Antiterrorism, Demining, and Related Programs grants, for
which OSCE personnel work directly with the relevant bureau.

        The mission is organized along legacy lines that reflect a time when the arms control
section was much larger and had a more active agenda. Two sections report to different
bureaus in the Department. The Bureau of Arms Control, Verification, and Compliance gives
guidance to the arms control section, and EUR provides guidance to the political section. The
former consists of two officers, one temporary duty position, and one locally employed office
management specialist. The latter consists of six officers, a locally employed staff member, a
professional associate, and an office management specialist. As organized, the mission is
unable to provide balanced office management support for the two sections, with a negative
effect on officer productivity. The current arrangement of two separate sections also limits the
mission’s capacity to backstop a position in the event of extended vacancies.

       The rationale for the continued maintenance of separate arms control and political
sections will depend on whether the arms control workload increases and whether DOD
maintains a permanent presence in the mission. Although DOD has direct interests at play in

                                          7
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

OSCE arms control bodies, there is no longer a civilian representative from the Office of the
Secretary of Defense. At the time of the inspection, the Joint Chiefs of Staff were considering
whether to end a permanent presence in the mission.

       Informal Recommendation 1: The U.S. Mission to the Organization for Security and
       Cooperation in Europe should assess its organizational structure in 2012 and determine,
       in light of the workload and institutional representation in the mission, whether it
       should maintain separate arms control and political sections.

        The political section focuses largely on the activities of the OSCE’s Permanent Council
and its subordinate entities, such as the ODIHR, as well as the OSCE Chairman-in-Office and
OSCE Secretariat. The political section deputy supervises four officers and has a substantive
portfolio that includes the Permanent Council’s security committee. In a combined section, that
responsibility could be shared or transferred to a political-military officer.

       Some employees believe that the political section needs an additional officer, but the
mission did not request a position in its last Mission Strategic and Resource Plan. Officers
perform some overtime work; the amount is not excessive, except around major OSCE events,
such as the human dimension implementation meeting. The recent addition of a professional
associate and the planned hiring of a part-time office management specialist to fill a 1-year
vacancy will ease some of the workload imbalance.

       Informal Recommendation 2: The U.S. Mission to the Organization for Security and
       Cooperation in Europe should monitor and periodically assess staff workloads,
       especially in the political section, and incorporate its resource findings into the next
       strategic planning request.

         In recent years, the OSCE has expanded its outreach to civil society and NGOs. The
USOSCE supports the inclusion of NGOs, academics, and media representatives in parallel
events in connection with OSCE summits, ministerial meetings, and conferences. After the
OSCE Ministerial Council in December 2011, the mission is transferring the media freedom
portfolio from the political section to the public diplomacy section. The political section is not
consistently including the public diplomacy officer in the section’s work to prepare for the
December council, even though the topic of media freedom is featured on the meeting agenda.
If this practice is not changed, the mission will be disadvantaged in the area of media freedom
when it has to prepare for subsequent OSCE ministerial meetings.

       Informal Recommendation 3: The U.S. Mission to the Organization for Security and
       Cooperation in Europe should include the public diplomacy officer in preparations for
       the December 2011 Organization for Security and Cooperation in Europe Ministerial
       Council meeting, in the area of media freedom.

        Short, daily huddles of the political section each morning focus on ongoing activities,
and these sessions are supplemented by weekly staff meetings. The huddles enhance
communication among staff and improve the officers’ ability to backstop one another. The
public diplomacy officer and the officer for resource management both work with the political

                                          8
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

section, but they do not regularly attend the weekly meetings. The political section also does
not engage in long-term planning at the weekly staff meeting.
       Informal Recommendation 4: The U.S. Mission to the Organization for Security and
       Cooperation in Europe should include the public diplomacy officer and the officer for
       resource management in the weekly staff meetings of the political section and should
       include a focus on long-term planning in these meetings.

        The weekly OSCE Permanent Council provides an opportunity for mission officers to
engage in diplomatic work with other delegations. At times the number of mission officers
present at sessions of the Permanent Council can be very large. The Permanent Council is the
center of OSCE deliberations, and attendance provides officers with an opportunity to learn
and advance U.S. objectives.
        Representation and travel funds are adequate. Officers have been able to travel to
countries within their portfolios to observe and report on OSCE activities. Until recently,
representation funds were not equitably used within the political section, but the new counselor
is correcting this disparity. The section head and deputy are developing an allocation plan for
representation funds, so that all officers can identify better representation activities that will
advance U.S. objectives.
         The U.S Commission on Security and Cooperation in Europe (the Helsinki
Commission), which was created by Congress, assigns a representative to the USOSCE who
serves on a basis similar to that of a long-term congressional staff delegation. This arrangement
is unique and works very well. The incumbent has an office in the mission and is fully
integrated into the mission’s work. He keeps the Helsinki Commission informed on OSCE
developments, advises the Ambassador on congressional views, and supports the mission’s
work in the field of human dimension and with regard to OSCE organizational reform. These
activities help the mission advance U.S. objectives within the OSCE, for which the Helsinki
Commission shares continued credit. In addition, the incumbent serves as a liaison to the
OSCE’s parliamentary assembly. Because of the potential for conflict of interest as a
representative of the legislative branch, the incumbent does not work on OSCE budgetary
issues.

Reporting, Analysis, and Advocacy

       The political and arms control sections report regularly on OSCE issues. A large
majority of the reporting consists of spot reports on meetings. Washington consumers give
both sections high marks for timeliness of reporting and quality. Many issues are technical,
especially in the arms control area, and Department as well as DOD officials value the
mission’s substantive expertise.

         The mission reports extensively on efforts to update the Vienna Document, a
foundation document relating to OSCE member obligations and responsibilities, as well as on
efforts to negotiate a new agreement on conventional forces in Europe. Both of these issues
involve U.S. security and foreign policy interests that command the attention of policymakers.
Washington consumers especially value the mission’s reporting on the OSCE’s work in the
human dimension topics promoting civil society, human rights, and the rule of law, areas for
                                                9
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

which the OSCE is best known. For example, USOSCE succeeded in finding a nonconsensus
mechanism that allowed the OSCE to investigate Belarus for its human rights violations,
following its December 2010 elections.

       About one-tenth of the approximately 100 front-channel cables that the USOSCE
transmitted in the 6 months prior to the OIG inspection provided analysis and policy
recommendations. Washington agencies credit USOSCE with providing value-added input to
U.S. Government policymaking. Much of this reporting, however, is done through informal,
nonrecord channels.

        The political, arms control, and resource management sections are not implementing
Department procedures for managing and retiring records, as is required by 5 FAM 414.5 and
5 FAH-4 H-113. One office management specialist does not have access to folders on the
section’s shared drive. The political section head has instructed staff on the requirement to file
official documents on the shared drive, but the files are disorganized and documents are not
readily accessible.

        In addition, the political and arms control sections are not organizing shared folders
according to the Department’s Traffic Analysis by Geography and Subject labeling system. The
sections do not archive email messages that meet the definition of records in 5 FAM 443.2.
Failure to implement such procedures impedes the Department’s ability to retrieve official
documents that are of value in the conduct of foreign policy and to historians. Tri-Mission
Vienna’s joint management office (JMO) has issued an administrative notice on 5 FAM 443
requirements, but USOSCE remains noncompliant.

Recommendation 2: The U.S. Mission to the Organization for Security and Cooperation in
Europe should implement a tracking system to verify that employees establish, maintain, and
annually retire official records, including email messages that qualify as records.
(Action: USOSCE)

       The mission produces a classified “USOSCE Daily Digest,” which the political section
prepares and sends by nonrecord email to a variety of Washington agencies and departments.
All mission sections contribute to the report, which conveys breaking information that is not
otherwise included in front-channel cables. The mission, however, makes little use of the
record email function of the State Messaging and Archive Retrieval Toolset software system.
Record email is designed to archive emails that should be preserved for the historical record,
such as those relating to official reports, schedules for visitors, ongoing steps taken in the
implementation of programs, and the exchange of views on policy-related matters. By using
nonrecord email, USOSCE is not preserving important record information as required.

Recommendation 3: The U.S. Mission to the Organization for Security and Cooperation in
Europe should use the record email function in the State Messaging and Archive Retrieval
Toolset system to save all correspondence that qualifies as record information.
(Action: USOSCE)




                                         10
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Political Section

        Under the pressure of a heavy workload, not all officers give proper attention to
producing analytical reports. Analytical reporting contributes to Washington’s understanding
of the OSCE’s capacity for (and limitations to) advancing U.S. interests. An example of useful
analytical reporting was the mission’s 2011 cable on ways the OSCE can contribute to
Afghanistan’s transition. Another useful area for analysis is how the United States and the
OSCE should manage the expansion of OSCE’s work beyond its traditional area, such as how
to manage Mongolia’s application for OSCE membership. The mission could usefully expand
its analytical reporting on challenges facing the OSCE.

         The flow of information between the political section and the front office is improving
with the arrival of the new DCM. The political counselor recognizes the continuing need to
elicit read-outs of meetings from the Ambassador and DCM, and to share the read-outs with
his staff. He also plans to take steps to show the section’s officers the editorial changes made to
briefing memos prepared for the Ambassador or DCM, which should help the staff improve
their drafting skills.
        The political counselor is sensitive to workload imbalances resulting from requests
from the front office, and is making efforts to encourage the use of other options that require
less officer work. The political counselor has flagged this issue for the front office and
understands that he has a responsibility to keep the front office advised, if workload demands
become excessive.
        Section leadership values the skills and motivation of the office management specialist.
The OIG team endorses the section’s plans to provide the specialist with more career enhancing
responsibilities, after the section fills a part-time office management position to help provide
office support.
        A local, U.S.-citizen employee with a security clearance works in the section. Over a
period of 8 years with USOSCE, she has accumulated one of the mission’s more substantive
portfolios. The employee expects to depart USOSCE soon. The section needs to plan how it
will reallocate the local employee’s portfolio (which includes helping the mission prepare for
ministerial meetings) among the section officers.
       Informal Recommendation 5: The U.S. Mission to the Organization for Security and
       Cooperation in Europe should develop a plan for reassigning the responsibilities of the
       local, U.S.-citizen employee once the position becomes vacant.

        The political section prepares briefing memos using various formats. The section head
recognizes that training officers to use the Department’s format for a briefing checklist would
better prepare them for other assignments; the OIG team encouraged him to do so.

Arms Control Section

       With a slowdown over the last decade in arms control activity in OSCE fora, the
mission’s arms control section has decreased to its present small size. An effort by the United
                                         11
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

States and its allies to renew negotiations on the conventional forces in Europe did not progress
in 2010.

        The section coordinates its reporting with a military office in the mission that represents
the Joint Chiefs of Staff. The two officers in the mission’s Joint Chiefs of Staff section
represent the United States at the OSCE military advisory committee. Those officers and a
person in a rotating temporary duty position from the Defense Threat Reduction Agency cover
DOD interests in the OSCE’s arms control fora. These three representatives assist the arms
control section in representing the United States at meetings of the OSCE Joint Consultative
Group, or in meetings of the parties to the multilateral, security Open Skies Treaty, as well as
in working groups revising the Vienna Document.

Office of Resource Management

        The mission’s office of resource management is headed by a Civil Service officer and
an assistant who is an eligible family member employee. The section head works closely with
the OSCE Secretariat’s Advisory Committee on Management and Finance to establish and
assess the OSCE’s budget and program performance.

         In addition, the section head oversees a Department contractor who handles U.S.
personnel seconded to the OSCE. She reviews and initials contractor billing statements, which
she then submits to the Bureau of Administration for processing, thus serving as the
contracting officer’s representative. The contract employee completed the required training
prior to arriving at USOSCE in the summer of 2011 and has sought designation as the
contracting officer’s representative, pursuant to 14 FAH-2 H-142, at the start of her assignment
in July 2011. However, the Bureau of Administration had not formally designated her as such
at the time of the inspection.

Recommendation 4: The Bureau of Administration should immediately designate a qualified
contracting officer’s representative in the office of resource management. (Action: A)

        The OSCE Secretariat has improved its accountability for field mission projects and
provides quarterly reports on all project phases, from proposal through implementation to
close-out. Field mission projects normally last 1 to 2 years and are financed by extra-budgetary
contributions from participating states. The new OSCE Secretary General now also is requiring
field missions to prepare similar reports on activities carried out under the unified budget. This
recent improvement in OSCE accountability came at the urging of the United States, but it also
has increased the workload for the political section officers who review and assess project
reports. The OSCE normally prepares three reports covering each project phase, and an officer
in the political section can spend as much as 45 hours a year reviewing and assessing OSCE
project reports, which are shared with Washington.

       Informal Recommendation 6: The U.S. Mission to the Organization for Security and
       Cooperation in Europe should coordinate with the Bureau of European and Eurasian
       Affairs to determine the feasibility of streamlining the process for U.S. evaluation of
       Organization for Security and Cooperation in Europe projects without diminishing
       accountability for the use of U.S. Government funds.
                                         12
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Public Affairs

        The small section conducts a wide range of outreach programs, which often involve the
public diplomacy-minded Ambassador, who is attentive to the importance of reaching
audiences throughout Europe and Eurasia. For example, the Ambassador in September 2011
launched a panel discussion sponsored by Reporters Without Borders, on the topic of European
security policy and freedom of expression. Also in September 2011, he conducted a digital
video conference with Belarusian NGO activists in Minsk; he followed this conference up with
a representational event with a different group of Belarusians at the OSCE’s human dimension
implementation meeting, held October 2011 in Warsaw.

        Section staff could better integrate its efforts into more aspects of USOSCE policy
advocacy. The new public affairs officer has taken initial steps to work more proactively with
other sections of the mission.

        Until very recently, the public affairs section conducted routine media activities, such
as disseminating U.S. positions or arranging speaking events. Its activities will change in
January 2012, when the section takes responsibility from the political section for the mission’s
reporting, analysis, and advocacy on media freedom issues in the OSCE. Freedom of the media
is an integral part of the OSCE’s overarching human dimension mandate, which encompasses
topics ranging from human rights and minorities to media freedom and civil society. In
anticipation of the portfolio transfer from the political section, the public affairs officer began
consultations in October 2011 with OSCE Secretariat staff charged with coordinating human
dimension programs.

        The mission makes good use of the Department’s International Visitor Leadership
Program to advance U.S. objectives with influential persons in OSCE participating states. In
FY 2011, one group of grantees from Armenia, Azerbaijan, Moldova, and Kyrgyzstan visited
the United States to learn how to build capacity in NGO management and community
leadership. A second project sent six Roma and Sinti NGO leaders to the United States to
meet with civil rights leaders, aid societies, government officials, and educators. All sections
in the mission contribute to the selection of grantees and the initial design of the visitor
programs.

        The public diplomacy section administers a modest grant program tied closely to
Mission Strategic and Resource Plan goals and aimed at promoting regional stability through
long-term capacity building. One grant funded a program for young Kosovar filmmakers that
resulted in the production of a documentary film on the work of the OSCE mission in Kosovo.
A second grant brought seven journalists and one academic from Armenia, Azerbaijan,
Georgia, and Moldova on a USOSCE-sponsored familiarization tour of the OSCE and UN
offices in Vienna.

        The public affairs officer holds valid grant authority. One shortcoming is the absence of
the mandatory DS-4012 Federal assistance file form, which comprehensively inventories
grants documentation. The form was not prepared for any of the grants that the OIG team
reviewed. The section is in the process of correcting this error. The locally employed staff
                                         13
                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

member who administers grants does not have required grants administration training. 1 Failure
to maintain proper grants documentation puts USOSCE at risk of the misuse of U.S. funds.

Recommendation 5: The U.S. Mission to the Organization for Security and Cooperation in
Europe should arrange for locally employed staff to complete the required grants training.
(Action: USOSCE)

        The public affairs section produces a Russian-language Web site, which is the
centerpiece of USOSCE outreach to the Russian speaking world. It is linked to USOSCE’s
English-language site and contains extensive information about both the OSCE and USOSCE
objectives, and how the two entities function. More importantly, the Web site features
translations of U.S. statements made before the OSCE Permanent Council, as well as
translations of significant OSCE documents. It is the only comprehensive, Russian-language
source for this information. The Bureau of International Information Programs uses much of
USOSCE’s Russian-language material for broader dissemination.

       In 2010, the section introduced social media platforms, including Twitter, Facebook,
YouTube, and Flicker, to its outreach programming activities. However, the section needs to
implement its evolving social media strategy judiciously, so the growing demands from
audiences for increased content do not outpace its ability to respond in a timely fashion. While
the number of people accessing each platform has increased over the past year, the mission
should focus on developing larger target audiences. UNVIE has considerable social media
marketing expertise that could help USOSCE to identify new audiences.

          Informal Recommendation 7: The U.S. Mission to the Organization for Security and
          Cooperation in Europe should consult with the U.S. Mission to International
          Organizations in Vienna to improve the marketing and technical quality of its social
          media platforms.

       While it appears that the public affairs section has adequate funding for both its locally
employed staff and its major program costs, USOSCE does not receive funding from the
Bureau of International Information Programs to enable it to program Washington-supplied
speakers who can help promote U.S. policy messages. It is unclear why USOSCE does not
receive a speaker allotment from the Bureau of International Information Programs, which
normally supplies such funding to all diplomatic missions abroad.

          Informal Recommendation 8: The U.S. Mission to the Organization for Security and
          Cooperation in Europe should ask the Bureau of International Information Programs to
          include the mission in the bureau’s Washington-supplied speaker programs.




1
    Foreign Service Institute courses PY 220: Introduction to Grants and Cooperative Agreements, and PY222:
    Monitoring Grants and Cooperative Agreements.
                                              14
                                  SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Resource Management
Financial and Human Resources

                                                              Locally
                            U.S. Direct-       U.S. Local-              Total        Total Funding
            Agency                                           Employed
                             Hire Staff        Hire Staff               Staff           FY2011
                                                               Staff

   Department of State                22                 3          9           34
   D&CP                               21                 2          5           28       $2,335,500
   USOSCE Representation                   0             0          0           0           $36,600
   ICASS                                   0             0          1           1              N/A
   Public Diplomacy                        1             1          3           5          $391,000
   Public Diplomacy
                                           0             0          0           0            $3,100
   Representation
   Arms Control                            2             0          2           4          $298,680
   Joint Chiefs of Staff                   3             0          1           4           $95,275
   Totals                             27                 3         12           42       $3,160,155



       The Tri-Mission Vienna JMO provides management support services for Embassy
Vienna. Management issues are discussed in the OIG report, Inspection of the Tri-Mission
Vienna Joint Management Office (March 2012).

Management Controls

        USOSCE believes that its management controls program is limited to those controls the
JMO assures. However, the JMO is the administrative and management service provider and
has no relationship to USOSCE’s political and public diplomacy functions. Without a controls
program for these areas, USOSCE cannot be sure its operations are free from waste, fraud,
abuse, and mismanagement. The Department’s management controls program applies to all
program, operational, and financial areas, according to 2 FAM 021.1 (d). Further, subpart (c)
requires Department mangers to evaluate systems on an ongoing basis.

Recommendation 6: The U.S. Mission to the Organization for Security and Cooperation in
Europe should designate a management control coordinator to undertake a risk assessment of
all its assessable units to formulate the basis for an assertion on management controls, and
implement a management controls program. (Action: USOSCE)

       The Chief of Mission disclaimed responsibility for USOSCE’s assertion on the annual
management controls statement of assurance, dated July 15, 2011. His statement asserted that
the Chief of Mission for Embassy Vienna has final authority and responsibility for assuring
that USOSCE’s management control objectives are achieved. Chiefs of mission are required to
provide an assurance statement concerning the effectiveness of internal controls in their own
operations (2 FAM 024 d.).
                                        15
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Recommendation 7: The U.S. Mission to the Organization for Security and Cooperation in
Europe in Vienna should reissue its 2011 annual management control statement of assurance
and include the Chief of Mission’s statement, based on risk assessments covering the entire
mission. (Action: USOSCE)




                                        16
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The U.S. Mission to the Organization for Security and Cooperation in
Europe should develop and implement a plan to provide first- and second-tour officers and
specialists with regular mentoring sessions and well defined opportunities to gain experience
with multilateral relations, support official visits, speak in public fora, produce written reports,
and participate in representational events. (Action: USOSCE)

Recommendation 2: The U.S. Mission to the Organization for Security and Cooperation in
Europe should implement a tracking system to verify that employees establish, maintain, and
annually retire official records, including email messages that qualify as records.
(Action: USOSCE)

Recommendation 3: The U.S. Mission to the Organization for Security and Cooperation in
Europe should use the record email function in the State Messaging and Archive Retrieval
Toolset system to save all correspondence that qualifies as record information.
(Action: USOSCE)

Recommendation 4: The Bureau of Administration should immediately designate a
qualified contracting officer’s representative in the office of resource management. (Action: A)

Recommendation 5: The U.S. Mission to the Organization for Security and Cooperation in
Europe should arrange for locally employed staff to complete the required grants training.
(Action: USOSCE)

Recommendation 6: The U.S. Mission to the Organization for Security and Cooperation in
Europe should designate a management control coordinator to undertake a risk assessment of
all its assessable units to formulate the basis for an assertion on management controls, and
implement a management controls program. (Action: USOSCE)

Recommendation 7: The U.S. Mission to the Organization for Security and Cooperation in
Europe in Vienna should reissue its 2011 annual management control statement of assurance
and include the Chief of Mission’s statement, based on risk assessments covering the entire
mission. (Action: USOSCE)




                                          17
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
       Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any
subsequent OIG inspection or on-site compliance review will assess the mission’s progress
in implementing the informal recommendations.

Informal Recommendation 1: The U.S. Mission to the Organization for Security and
Cooperation in Europe should assess its organizational structure in 2012 and determine, in light
of the workload and institutional representation in the mission, whether it should maintain
separate arms control and political sections.

Informal Recommendation 2: The U.S. Mission to the Organization for Security and
Cooperation in Europe should monitor and periodically assess staff workloads, especially in
the political section, and incorporate its resource findings into the next strategic planning
request.

Informal Recommendation 3: The U.S. Mission to the Organization for Security and
Cooperation in Europe should include the public diplomacy officer in preparations for the
December 2011 Organization for Security and Cooperation in Europe Ministerial Council
meeting, in the area of media freedom.

Informal Recommendation 4: The U.S. Mission to the Organization for Security and
Cooperation in Europe should include the public diplomacy officer and the officer for resource
management in the weekly staff meetings of the political section and should include a focus on
long-term planning in these meetings.

Informal Recommendation 5: The U.S. Mission to the Organization for Security and
Cooperation in Europe should develop a plan for reassigning the responsibilities of the local,
U.S.-citizen employee once the position becomes vacant.

Informal Recommendation 6: The U.S. Mission to the Organization for Security and
Cooperation in Europe should coordinate with the Bureau of European and Eurasian Affairs to
determine the feasibility of streamlining the process for U.S. evaluation of Organization for
Security and Cooperation in Europe projects without diminishing accountability for the use of
U.S. Government funds.

Informal Recommendation 7: The U.S. Mission to the Organization for Security and
Cooperation in Europe should consult with the U.S. Mission to International Organizations in
Vienna to improve the marketing and technical quality of its social media platforms.

Informal Recommendation 8: The U.S. Mission to the Organization for Security and
Cooperation in Europe should ask the Bureau of International Information Programs to include
the mission in the bureau’s Washington-supplied speaker programs.



                                         18
                             SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Principal Officials


                                                           Name      Arrival Date
Ambassador                                              Ian Kelly           03/10
Deputy Chief of Mission                             Gary Robbins            08/11
Chiefs of Units:
  Political                                  Christopher Robinson          08/11
  Arms Control                                     Damian Leader           08/10
  Public Diplomacy                            Christopher Midura           07/11
  Management Counselor                          Margaret Uyehara           08/10
  Regional Security                            Mary-Jo Swinimer            03/11
Other Agencies:
  Department of Defense                            Jeffrey Fischer         06/11




                                      19
                          SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED


Abbreviations
AEECA                  Assistance for Eastern Europe, Eurasia, and Central Asia
DCM                    Deputy chief of mission
DOD                    Department of Defense
EUR                    Bureau of European and Eurasian Affairs
Helsinki Commission    U.S Commission on Security and Cooperation in Europe
JMO                    Tri-Mission Vienna joint management office
NATO                   North Atlantic Treaty Organization
NGO                    Nongovernmental organization
ODIHR                  Office of Democratic Institutions and Human Rights
OSCE                   Organization for Security and Cooperation in Europe
UNVIE                  U.S. Mission to International Organizations in Vienna
USOSCE                 U.S. Mission to the Organization for Security and Cooperation in
                       Europe




                                  20
                      SENSITIVE BUT UNCLASSIFIED
  SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
